APPLICATION AND
SOLICITATION
DISCLOSURE

RATEWISE MASTERCARD

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

APR for Balance Transfers

APR for Cash Advances

7.90% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
7.90% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
7.90% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

$5.00 or 2.00% of the amount of each cash advance, whichever is greater
(Maximum Fee: $25.00)
1.00% of each transaction in U.S. dollars
Up to $25.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (excluding new purchases and balance transfers) (including new cash
advances)."
Effective Date:
The information about the costs of the card described in this application is accurate as of: July 2, 2021
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the World MasterCard is a secured credit card. Credit extended under this credit card
account is secured by various personal property and money including, but not limited to: (a) any goods you
purchase with this account, (b) any shares you specifically pledge as collateral for this account on a separate
Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union excluding
shares in an Individual Retirement Account or in any other account that would lose special tax treatment under
state or federal law, and (d) collateral securing other loans you have with the Credit Union excluding dwellings.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are one or more days late in making a
payment.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03118559-MXC10-C-1-052421 (MXC102-E)

Cash Advance Fee (Finance Charge):
$5.00 or 2.00% of the amount of each cash advance, whichever is greater, however, the fee will never exceed $25.00.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
$10.00.
Pay-by-Phone Fee:
$5.00.
Rush Fee:
$15.00 overnight.
Statement Copy Fee:
$10.00.
Minimum Payment:
The Minimum Payment Due is 2.00% of Your total New Balance, or $25.00, whichever is greater, plus any amount past
due and any amount by which You have exceeded Your applicable credit limit. If Your total New Balance is less than
$25.00, then Your Minimum Payment Due is the amount of the total New Balance.

Mastercard is a registered trademark, and the circles design is a trademark of Mastercard International Incorporated.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03118559-MXC10-C-1-052421 (MXC102-E)

